HHS/OIG, Audit -"Review Of Medicare Secondary Payer Processes At Lenox Hill Hospital for Claims Paid Between July 1, 2001 and March 31, 2002,"(A-02-02-01038)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in
Virginia That Were Paid Under the Medicaid Program," (A-03-02-00204)
January 12, 2004
Complete
Text of Report is available in PDF format (343 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We reviewed a statistical sample of the records of 200 children from a population of 54,208 children
in Virginia who were covered by Title IV-D of the Social Security Act.  Based on the sample, we estimated that the
noncustodial parents of 15,449 of these children could have contributed about $6.8 million towards the costs (about $11.3
million) paid by Medicaid for medical services provided during the period June 1, 2001 through May 31, 2002.   We
recommended that Virginia consider the results of our study and pursue collecting the Medicaid costs incurred for children
of noncustodial parents who have medical support orders and the ability to pay.